WAIVER

Supreme Court of the United States

No. 19-88
Wadith Stockinger Nader, et al. v. City of Papillion, et al.
(Petitioners) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Q Please enter my appearance as Counsel of Record for all respondents.

‘i There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Jarpy County, Webraska’ L.keanetn Pali:
Jennifer MNirgues
mM Iam a member of the Bar of the Supreme Court of the United States.

Q Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by, ember.

   

 

 

 

Signature
Date: ie 3l- IF
(Type or print) Name. Bran R: doh NSM
OMr. Ms. OMrs, O Miss

rim__Gavernmental Law, LLC

address 8040 Ejger Drive duit 8

City & State. Lin As WME Zip OF5lo
Phone V0 A- 742- 9A40

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

* Ryan M. Kunhart
Christopher J. Tjaden

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
